<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                         DEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee did not hold formal 
hearings for the Government Publishing Office and the Office of 
Compliance. Following are the statements submitted by them:]

                      GOVERNMENT PUBLISHING OFFICE

           Prepared Statement of Davita Vance-Cooks, Director
    Chairwoman Capito, Ranking Member Schatz, and Members of the 
Subcommittee on Legislative Branch Appropriations, it is an honor to 
present the appropriations request of the Government Publishing Office 
(GPO) for fiscal year 2016. As background, my prepared statement 
provides an overview of GPO's functions and operations.
                      government publishing office
    The Government Publishing Office (GPO) is the OFFICIAL, DIGITAL, 
SECURE resource for producing, procuring, cataloging, indexing, 
authenticating, disseminating, and preserving the official information 
products of the Federal Government.
    Under Title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now an integrated 
publishing operation and carry out our mission using an expanding range 
of digital as well as conventional formats. Congress and the President 
recognized this change in our operations in the Consolidated and 
Continuing Appropriations Act of Fiscal Year 2015 (Public Law 113-235), 
which contains a provision redesignating GPO's official name as the 
Government Publishing Office. GPO currently employs about 1,700 
workers.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov), 
which today makes more than 1 million Federal titles available online 
from both GPO and links to servers in other agencies. In fiscal year 
2014 FDsys averaged 38.1 million retrievals per month, with a spike up 
to 47.5 million during the Government shutdown of October 2013. We also 
provide public access to Government information through partnerships 
with approximately 1,200 libraries nationwide participating in the 
Federal Depository Library Program.
    In addition to GPO's Web site, www.gpo.gov, we communicate with the 
public routinely via Facebook http://www.facebook.com/USGPO, Twitter 
twitter.com/USGPO, YouTube http://www.youtube.com/user/gpoprinter, and 
Pinterest http://pinterest.com
/usgpo/.
History
    From the Mayflower Compact to the Declaration of Independence and 
the papers leading to the creation and ratification of the 
Constitution, America is a nation based on documents, and our 
governmental tradition since then has reflected that fact. Article I, 
section 5 of the Constitution requires that ``each House shall keep a 
journal of its proceedings and from time to time publish the same.'' 
After years of struggling with various systems of contracting for 
printed documents that were beset with scandal and corruption, in 1860 
Congress created the Government Printing Office as its official 
printer. GPO first opened its doors for business on March 4, 1861, the 
same day Abraham Lincoln was inaugurated as the 16th President.
    Since that time, GPO has produced and distributed the official 
version of every great American state paper and an uncounted number of 
other Government publications, documents, and forms. These documents 
include the Emancipation Proclamation, the legislative publications and 
acts of Congress, Social Security cards, Medicare and Medicaid 
information, census forms, tax forms, citizenship forms, passports, 
military histories ranging from the Official Records of the War of the 
Rebellion to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. This work goes on today, in both digital as well as print 
forms.
Strategic Vision and Plan
    GPO is transforming from a print-centric to a content-centric 
publishing operation. In fiscal year 2016 and the years ahead, GPO will 
continue to develop an integrated, diversified product and services 
portfolio that focuses primarily on digital. Although industry experts 
predict tangible print will continue to be required because of official 
use, archival purposes, authenticity, specific industry requirements, 
and segments of the population that either have limited or no access to 
digital formats, we recognize that the volume of tangible print that is 
requisitioned from GPO is declining and will continue to decline.
    GPO's strategic plan, which is available for public review at 
http://www.gpo.gov/about/, is built around four goals: satisfying our 
stakeholders, offering products and services, strengthening our 
organizational foundation, and engaging our workforce. The plan 
provides the blueprint for how GPO will continue to achieve its mission 
of Keeping America Informed with an emphasis on being OFFICIAL, 
DIGITAL, SECURE. GPO's senior managers convene at the beginning of the 
fiscal year to review the plan and approve it before it is issued.
Technology Transformation
    GPO has continually transformed itself throughout its history by 
adapting to changing technologies. In the ink-on-paper era, this meant 
moving from hand-set to machine typesetting, from slower to high-speed 
presses, and from hand to automated bookbinding. These changes were 
significant for their time.
    Yet they pale by comparison with the transformation that 
accompanied our incorporation of electronic information technologies, 
which began over 50 years ago in 1962 when the Joint Committee on 
Printing directed the agency to develop a new system of computer-based 
composition. That order led to the development of GPO's first 
electronic photocomposition system, which by the early 1980's had 
completely supplanted machine-based hot metal typesetting. Following 
the enactment of the GPO Electronic Information Access Enhancement Act 
in 1993, the databases generated by our composition system were 
uploaded to the Internet via GPO's first Web site, GPO Access, vastly 
expanding the agency's information dissemination capabilities. Those 
functions continue today with FDsys on a more complex and comprehensive 
scale.
    While transforming to an increasingly digital footing, GPO 
continues to provide an array of printing services to support the needs 
of Congress, Federal agencies, and the public. GPO is retooling its 
print operations to utilize a smaller, more flexible, more digitally-
based equipment profile than previously. In fiscal year 2014 we took 
delivery of a new zero make-ready press to support congressional and 
Federal agency publishing requirements, which will replace two aging 
presses that have been in place since 1979. We are continually 
reviewing product and equipment options to ensure that our publishing 
activities are conducted with the most efficient, effective 
technologies available.
    As a result of these sweeping technology changes--digital products, 
equipment, and processes GPO is now fundamentally different from what 
it was as recently as a generation ago. It is smaller, leaner, and 
equipped with digital production capabilities that are the bedrock of 
the information systems relied upon daily by Congress, Federal 
agencies, and the public to ensure open and transparent Government in 
the digital era. As we prepare GPO for the Government information 
environment and technology challenges of the future, our transformation 
is continuing with the development of new ways of delivering Government 
information, including apps and bulk data download files.
                            gpo and congress
    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO publishes the documents and 
publications required by the legislative and oversight processes of 
Congress in digital and tangible formats. This includes the daily 
Congressional Record, bills, reports, legislative calendars, hearings, 
committee prints, and documents, as well as stationery, franked 
envelopes, memorials and condolence books, programs and invitations, 
phone books, and the other products needed to conduct the business of 
Congress. We also detail expert staff to support the publishing 
requirements of House and Senate committees and congressional offices 
such as the House and Senate Offices of Legislative Counsel. We work 
with Congress to ensure the provision of these services under any 
circumstances.
    Today the activities associated with creating congressional 
information databases comprise the majority of the work funded by our 
annual Congressional Publishing Appropriation (formerly known as the 
Congressional Printing and Binding Appropriation). Our advanced digital 
authentication system, supported by public key infrastructure (PKI), is 
an essential component for assuring the digital security of 
congressional publications. The databases we build are made available 
for providing access to congressional publications in digital formats 
as well as their production in tangible formats.
    GPO's congressional information databases also form the building 
blocks of other information systems supporting Congress. For example, 
they are provided directly to the Library of Congress to support its 
Congress.gov system as well as the legislative information systems the 
Library makes available to House and Senate offices. We work with the 
Library to prepare summaries and status information for House and 
Senate bills in XML bulk data format. We are also collaborating with 
the Library on the digitization of historical printed documents, such 
as the Congressional Record, to make them more broadly available to 
Congress and the public.
GPO Cuts the Cost of Congressional Work
    The use of electronic information technologies by GPO has been a 
principal contributor to lowering the cost, in real economic terms, of 
congressional information products. In fiscal year 1980, as we replaced 
hot metal typesetting with electronic photocomposition, the 
appropriation for Congressional Publishing was $91.6 million, the 
equivalent in today's dollars of $263 million. By comparison, our 
approved funding for fiscal year 2015 is $79.7 million, a reduction of 
more than two-thirds in constant dollar terms.
    Productivity increases resulting from technology have enabled us to 
make substantial reductions in staffing requirements while continuing 
to improve services for Congress. In 1980, GPO employment was 6,450. 
Today, we have 1,695 employees on board, representing a reduction of 
4,755, or more than 70 percent. This is the smallest GPO workforce of 
any time in the past century.
Highlights of Fiscal Year 2014 Congressional Work
    In fiscal year 2014, essential staff from GPO remained on duty 
during the Government shutdown in October 2013 to meet the publishing 
requirements of Congress throughout the shutdown period without any 
interruption or reduction in service. During the year, we published the 
Congressional Directory for the 113th Congress under the direction of 
the Joint Committee on Printing, and late in the year we released the 
New Member Pictorial Directory for the 114th Congress as prepared by 
the Committee on House Administration. We also worked with the Office 
of the Clerk of the House to prepare an eBook version of Hispanic 
Americans in Congress 1822-2012.
    At the direction of the House Appropriations Committee, and in 
support of the House's task force on bulk data, in 2014 we began work 
with the Library of Congress to make House bill status information 
prepared by the Congressional Research Service available in XML bulk 
data format. Late in the year our work in making legislative 
information available in XML bulk data format was expanded to include 
Senate bills, at the request of the Secretary of the Senate.
                        gpo and federal agencies
    Federal agencies are major generators of information in the United 
States, and GPO produces their information products for official use 
and public access. Federal agencies and the public also rely on a 
growing variety of secure credentials produced by GPO, including 
travelers holding U.S. passports, members of the public who cross our 
borders frequently, and other users. Our digital systems support key 
Federal agency publications, including the annual Budget of the U.S. 
Government and, most importantly, the Federal Register and associated 
products. As it does for congressional documents, our digital 
authentication system, supported by public key infrastructure (PKI), 
assures the digital security of agency documents. GPO does not receive 
appropriations to produce work for Federal agencies. Instead, we 
provide products and services on a reimbursable basis.
Highlights of Fiscal Year 2014 Agency Operations
    For the past 3 years we have made the Budget of the U.S. Government 
available as a mobile app.
    One of GPO's major agency customers is the Office of the Federal 
Register (OFR), which produces the daily Federal Register and related 
publications such as the Code of Federal Regulations, and other key 
information products like the Daily Compilation of Presidential 
Documents and the Public Papers of the President. GPO produces these 
publications in both digital and tangible formats.
    Since 1926 GPO has been responsible for producing the U.S. 
passports for the Department of State. At one time, no more than a 
conventionally printed document, the U.S. passport since 2005 has 
incorporated a digital chip and antenna array capable of carrying 
biometric identification data. With other security printing features, 
this document--that we produce in Washington, DC, as well as a secure 
remote facility in Mississippi--is now the most secure identification 
credential obtainable. In fiscal year 2014, we made changes to our 
facilities to begin installing equipment that will be used to produce 
the next generation passport.
    Since 2008, we have served as an integrator of secure 
identification smart cards to support the credentialing requirements of 
Federal agencies and other Government entities. Our secure credential 
unit has been certified by the General Services Administration (GSA) as 
the only government-to-government provider of credentials meeting the 
requirements of Homeland Security Presidential Directive 12 (HSPD-12).
    We anticipated that the sequester implemented during fiscal year 
2013 would impact funding for printing and other information products 
ordered through GPO. In response, we implemented increased controls on 
spending, reprioritized capital investment plans, and closely monitored 
costs. GPO was able to continue its support of Federal agency 
publishing and information product requirements without any 
interruption or reduction in service. During the October 2013 
Government shutdown, GPO initially scaled back support of Federal 
agency requirements consistent with Office of Management and Budget and 
related requirements for a lapse in funding. However, as the shutdown 
continued and some agencies returned to business (such as the 
Department of Defense), GPO responded to their essential requirements. 
Additionally, GPO provided public access via FDsys to health and safety 
regulatory information issued by the Office of the Federal Register 
during the shutdown.
    During fiscal year 2014, GPO reported positive results on a 
customer satisfaction survey of approximately 500 Federal agencies. The 
survey focused on GPO's products, services, and programs, the cost-
effectiveness of services, and satisfaction with GPO's Web site and 
customer service. Some of the results included:
  --91 percent of customers are satisfied with overall service from 
        their primary GPO location
  --90 percent are likely to recommend GPO to a colleague
  --90 percent say they do not believe they can beat or match GPO 
        pricing
    The survey was conducted in support of GPO's Strategic Plan, that 
emphasizes a customer-centric approach through agency-wide procedures, 
policies, and activities implemented to ensure GPO is meeting 
customers' needs and exceeding their expectations.
Partnership With Industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the Budget, and secure and intelligent documents, 
we produce virtually all other Federal agency information products via 
contracts with the private sector printing and information product 
industry issued by our central office and regional GPO offices around 
the country. In fiscal year 2014, this work amounted to approximately 
$289.3 million. Approximately 16,000 individual firms are registered to 
do business with GPO, the vast majority of whom are small businesses 
averaging 20 employees per firm. Contracts are awarded on a purely 
competitive basis; there are no set-asides or preferences in 
contracting other than what is specified in law and regulation, 
including a requirement for Buy American. This partnership provides 
great economic opportunity for the private sector.
                  gpo and open, transparent government
    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

        ``A popular Government without popular information, or the 
        means of acquiring it, is but a Prologue to a Farce or a 
        Tragedy, or perhaps both. Knowledge will forever govern 
        ignorance, and a people who mean to be their own Governors, 
        must arm themselves with the power which knowledge gives.''

    GPO operates a variety of programs that provide the public with 
``the means of acquiring'' Government information that Madison spoke 
of. These programs include the Federal Depository Library program 
(FDLP), Federal Digital System (FDsys), Publications Sales, and Social 
Media.
Federal Depository Library Program
    The FDLP has legislative antecedents that date back 200 years, to 
1813. Across those years, depository libraries have served as critical 
links between ``We the People'' and the information made available by 
the Federal Government. GPO provides the libraries with information 
products in digital and, in some cases, tangible formats, and the 
libraries in turn make these available to the public at no charge while 
providing additional help and assistance to depository library users. 
The program today serves millions of Americans through a network of 
approximately 1,200 public, academic, law, and other libraries located 
across the Nation, averaging nearly three per congressional district. 
Once limited to the distribution of printed and microfiche products, 
the FDLP today is primarily digital, supported by FDsys and other 
digital resources. This overwhelming reliance on digital content 
allowed for the first digital-only Federal depository library 
designation in fiscal year 2014, with others to follow.
    In fiscal year 2014, GPO completed work on our FDLP Forecast Study, 
a collaborative research project between GPO and depository libraries, 
that surveyed all depository libraries to assess the current conditions 
of the program. Primary issues identified in the survey include budget 
constraints, use of physical space, staffing, and collection scope 
changes. Results from this initiative will serve as a blueprint for 
developing a new National Plan for Access to Federal Government 
Information.
    Also supporting the Federal depository libraries and the public 
nationwide is the work GPO does under its statutory mandate to catalog 
a comprehensive index of public documents issued or published by the 
Federal Government that are not confidential in character. The public 
interface for accessing these cataloging records is GPO's Catalog of 
U.S. Government Publications (CGP). In fiscal year 2014, there were 
25.6 million successful searches of the CGP, an increase of 10.5 
million over fiscal year 2013. Also during this period, more than 
13,800 new cataloging records were added to the CGP, of which 60 
percent contained direct online links to the cataloged content. 
Additionally, more than 150 free Federal Government eBooks from various 
agencies are now available via the CGP, with more being added 
continuously. Thanks to a partnership we forged with the Digital Public 
Library of America (DPLA), more than 150,000 records from GPO's digital 
Catalog of Government Publications are now also available to the public 
through the DPLA's Web site.
Federal Digital System
    GPO has been providing access to digital congressional and Federal 
agency documents since 1994. Today, FDsys provides the majority of 
congressional and Federal agency content to the FDLP as well as other 
online users. This system has reduced the cost of providing public 
access to Government information significantly when compared with 
print, while expanding public access dramatically through the Internet. 
Public utilization of FDsys has increased substantially. In 2014, 
FYFDsys recorded its 1 billionth document retrieval since replacing our 
original online Web site, GPO Access. Currently, FDsys serves as a 
secure preservation repository for more than 1 million individual 
titles from all three branches of the Government, the only system of 
its kind in operation today. In fiscal year 2014, FDsys averaged 38.1 
million retrievals per month, with a spike of up to 47.5 million during 
the October 2013 Government shutdown.
    GPO is continually adding collections to FDsys to provide increased 
public access to Government information. In fiscal year 2014, new 
collections were added ranging from audio books to digital editions of 
historic publications like the Warren Report on the assassination of 
President Kennedy and the Civil Rights Act of 1964. At the end of the 
year, we were one of 5 institutions named by the Library of Congress 
and the National Institute of Museum and Library Services to be part of 
the National Digital Stewardship Residency program, under which we are 
now preparing to become the first Federal agency certified as a 
Trustworthy Digital Depository for Government information.
    During the October 2013 Government shutdown, the FDsys 
congressional and regulatory information collections were continually 
updated as an essential function in order to provide public access to 
this essential information. The other collections on FDsys were not 
updated but were still accessible. All other information on gpo.gov 
(concerning our Online Bookstore, FDLP.gov, Contractor Connect, etc.) 
remained static during the shutdown.
FDsys Improvements Planned for Fiscal Year 2016
    As GPO's enterprise information management system for digital 
information dissemination and preservation, FDsys is a critical 
component of our integrated publishing operation. Continued investment 
in this cornerstone system is needed in order to ensure FDsys 
technology, features, and functionality supports GPO's mission and 
meets the needs of key stakeholders, including Congress, Federal 
agencies, and the American public.
    In fiscal year 2016, the Next Generation FDsys public website 
(NextGen) will officially launch and the legacy site will be retired. 
NextGen functionality will greatly enhance the way stakeholders can 
interact with FDsys, including a responsive user interface, replacement 
of the current search engine with an Open Source search engine, the 
implementation of linking between related publications, and user 
interface improvements based on extensive stakeholder engagement.
    Along with the launch of NextGen, other initiatives are crucial for 
managing Federal Government content in FDsys, including developing new 
content collections, increasing content in existing collections, 
enhancing the accessibility of content, and increasing the 
discoverability of information within the system. GPO also has begun 
the initial process to seek certification for FDsys as a Trustworthy 
Digital Repository in compliance with the International Organization 
for Standardization (ISO 16363). This certification will validate that 
FDsys, its infrastructure, and its supporting organization are reliable 
and sustainable, in order to ensure the highest level of service now 
and into the future.
    With the planned updates to the FDsys search, content management, 
and preservation components and along with certification of FDsys as a 
Trusted Digital Repository, it is also critical to invest in the IT 
infrastructure supporting the system. This includes bandwidth, storage, 
and servers needed for the Production, COOP, Test, and Development 
environments. In fiscal year 2016, GPO will also explore how to migrate 
FDsys to the Cloud to reduce reliance on on-site physical 
infrastructure.
GPO Achieves Savings in Information Dissemination
    Since fiscal year 1995, the first full year of our online 
operations, the cost of producing and distributing millions of copies 
of printed publications to Federal depository libraries nationwide was 
funded at $17.6 million, the equivalent of $27.3 million in constant 
dollars. For fiscal year 2016, we are proposing to fund this function 
at $8.2 million, a reduction of nearly 70 percent in constant dollar 
terms. Along with appropriations to GPO's Revolving Fund, we have used 
the savings from reduced printing and distribution costs to pay for the 
establishment and operation of our digital information dissemination 
operations, achieving additional savings for the taxpayers and vastly 
expanding public access to Government information.
Publication and Information Sales Program
    Along with the FDLP and FDsys, which are no-fee public access 
programs, GPO provides public access to official Federal information 
through public sales featuring secure ordering through an online 
bookstore, a bookstore at GPO headquarters in Washington, DC, and 
partnerships with the private sector that offer Federal publications as 
eBooks. As a one-stop shop for eBook design, conversion, and 
dissemination, our presence in the eBook market continues to grow. We 
now have agreements with Apple, Google's eBookstore, Barnes & Noble, 
OverDrive, Ingram, Zinio, and other online vendors to make popular 
Government titles such as the Public Papers of the President-Barack 
Obama, the Financial Crisis Inquiry Report, and Ponzimonium: How Scam 
Artists are Ripping Off America available as eBooks. Additionally, in 
fiscal year 2014 we worked with Congress to make Hispanic Americans in 
Congress available as an eBook.
Reimbursable Distribution Program
    We operate distribution programs for the information products of 
other Federal agencies on a reimbursable basis, including General 
Services Administration (GSA) Consumer Information Center publications, 
from warehouses in Pueblo, CO, and Laurel, MD.
GPO and Social Media
    We use Facebook, Twitter, YouTube, and a book blog to share 
information about GPO news and events and to promote specific 
publications and products. By the end of fiscal year 2014, we had 3,932 
likes on Facebook, 5,372 followers on Twitter, and 120,000 views across 
66 videos on YouTube. On Pinterest, we had 422 followers pinning on 15 
boards of Federal Government information. Our book blog, Government 
Book Talk, focuses on increasing the awareness of new and classic 
Federal publications through reviews and discussions.
                             gpo's finances
Business Operations Revolving Fund
    All GPO activities are financed through our Business Operations 
Revolving Fund. This business-like fund is used to pay all of GPO's 
costs in performing congressional and agency publishing, information 
product procurement, and publications dissemination activities. It is 
reimbursed from payments from customer agencies, sales to the public, 
and transfers from GPO's two annual appropriations: the Congressional 
Publishing Appropriation and the Public Information Programs of the 
Superintendent of Documents Appropriation.
    The Business Operations Revolving Fund functions as GPO's checking 
account with the U.S. Treasury. GPO pays its expenses from this account 
either with electronic transfer or check. The fund is reimbursed when 
the Treasury Department transfers money from agency appropriations 
accounts to the fund when agencies pay GPO invoices. This procedure 
also applies to the payment of transfers from the Congressional 
Publishing and Public Information Programs appropriations, and to 
deposits of funds collected from sales to the public.
    GPO maintains a cash balance in the Business Operations Revolving 
Fund that is used to pay all expenses. The cash balance fluctuates 
daily as payments are received from agency reimbursements, customer 
payments, and transfers from GPO appropriations.
Retained Earnings
    Under GPO's system of accrual accounting, annual earnings generated 
since the inception of the Business Operations Revolving Fund have been 
accumulated as retained earnings. Retained earnings make it possible 
for GPO to fund a significant amount of technology modernization. 
However, appropriations for essential investments in technology and 
plant upgrades are also necessary and are requested annually.
Appropriated Funds
    GPO's Congressional Publishing Appropriation is used to reimburse 
the Business Operations Revolving Fund for costs of publishing the 
documents required for the use of Congress in digital and tangible 
formats, as authorized by the provisions of chapters 7 and 9 of Title 
44, U.S.C. The Public Information Programs of the Superintendent of 
Documents Appropriation is used to pay for costs associated with 
providing online access to, and the distribution of, publications to 
Federal depository libraries, cataloging and indexing, statutory 
distribution, and international exchange distribution. The 
reimbursements from these appropriations are included in the Business 
Operations Revolving Fund as revenue for work performed. Money is also 
appropriated to GPO's Business Operations Revolving Fund to increase 
working capital for necessary investments in information technology and 
facilities maintenance and repair.
Fiscal Year 2014 Financial Results
    Revenue totaled $696.3 million while expenses charged against GPO's 
budget were $672.3 million, for an overall net income of $24 million 
from operations. Included in both GPO's revenue and net income is 
approximately $15.1 million in funds set aside for passport-related 
capital investments, as agreed to by GPO and the Department of State, 
and $2.1 million in funds resulting from an adjustment to GPO's long-
term workers' compensation liability under the Federal Employees 
Compensation Act (FECA). Apart from these funds, GPO's net operating 
income from fiscal year 2014 was $6.8 million. GPO's financial 
statements are audited annually by an independent third party 
contracted for by our Office of Inspector General, and we routinely 
receive a clean, or as it is now called, ``unmodified,'' opinion.
                fiscal year 2016 appropriations request
    We are requesting a total of $120,000,000 for fiscal year 2016, 
which is essentially flat compared to the level of funding, 
$119,993,000, approved for fiscal year 2015 in Public Law 113-235. 
Continuing overhead cost-cutting actions undertaken since fiscal year 
2011, in addition to a buyout successfully conducted in the first 
quarter of fiscal year 2015 that reduced GPO's workforce by 103 
positions, have helped make this flat funding request possible. 
Additionally, with the approval of the House and Senate appropriations 
committees, each year we have transferred any unspent prior year 
balances from our appropriations to GPO's business operation revolving 
fund, where they are available for the uses for which they were 
originally appropriated. This also has made it possible for us to 
reduce the need for new funding.
    Our fiscal year 2016 request will enable us to:
  --meet projected requirements for congressional publishing;
  --fund the operation of the public information programs of the 
        Superintendent of Documents; and
  --develop information technology and perform facilities maintenance 
        and repair.
Congressional Publishing Appropriation
    We are requesting $79,736,000 for this account, the same level 
approved for fiscal year 2015 in Public Law 113-235. Unspent prior year 
balances from this account that have been transferred to GPO's business 
operations revolving fund are available for the purposes of this 
account for fiscal year 2015 and fiscal year 2016.
    House Report 112-148, accompanying the Legislative Branch 
Appropriations bill for fiscal year 2012, requires the presentation of 
budget requirements from a zero base. However, GPO has no control over 
the workload requirements of the Congressional Publishing 
Appropriation. These are determined by the legislative activities and 
requirements of the House of Representatives and the Senate as 
authorized by the applicable provisions of Title 44, U.S.C. GPO 
utilizes historical data incorporating other relevant factors to 
develop estimates of likely congressional publishing requirements. 
These requirements are used as the basis of the budget presentation for 
this account.
    For fiscal year 2015, we estimate that total congressional 
publishing requirements will be $82,669,000, using projections based on 
prior year data. We plan to use $2,933,000 of transfers from the 
unexpended balances of prior year appropriations to help offset these 
requirements. This reduced our need for new funding to $79,736,000, the 
level that has been approved for this year.
    For fiscal year 2016, we estimate that total congressional 
publishing requirements will be $85,750,000, using projections based on 
prior year data. We plan to use $6,014,000 that is available in 
unexpended prior funds to offset part of these requirements, resulting 
in our request for $79,736,000 in new funding. Additionally, we plan to 
set aside $7,478,000 in transferred unspent prior year funds to finance 
the continuing development of our Composition System Replacement 
project, which will implement an XML-based composition system in place 
of our 30-year old Microcomp system. This year, we plan to request 
approval for the transfer of approximately $540,000 in unspent prior 
year funds to our Business Operations Revolving Fund, to help cover 
future congressional publishing requirements.
    The estimated requirements for fiscal year 2016 include a projected 
price level increase of $1,881,000, primarily to cover employee pay 
increases equivalent with those paid government wide. Additionally, 
there is a $1,200,000 increase to cover anticipated volume requirements 
as derived from historical data, principally for the Congressional 
Record, calendars, and hearings. Partially offsetting these increases 
are volume decreases projected primarily for documents, bills, and 
committee prints.
Public Information Programs of the Superintendent of Documents
    We are requesting $30,500,000 for this account, representing a 
decrease of $1,000,000 or 3.2 percent from the amount approved for 
fiscal year 2015 in Public Law 113-235. As with our Congressional 
Publishing Appropriation, unspent prior year balances from this account 
that have been transferred to GPO's business operations revolving fund 
are available for the purposes of this account for fiscal year 2015 and 
fiscal year 2016. The requested amount is based on the outcome of using 
zero-based budgeting to determine the proper levels of funding needed 
to perform program activities at minimum levels, as directed by House 
Report 112-148.
    The funding we are requesting for fiscal year 2016 will cover 
mandatory pay and related cost increases of $342,000. Merit and other 
pay increases are included for 94 FTE's, the same as for fiscal year 
2015. In addition, the requested funding covers projected price level 
increases of $175,000, including ongoing systems maintenance and FDsys 
operating expenses.
    Unspent prior year appropriations balances that have been 
transferred with the approval of the Appropriations Committees to our 
Business Operations Revolving Fund, totaling $1,517,000 will be used to 
fund the continuation of cataloging and indexing efforts to harvest and 
catalog historical publication for digital preservation. In 2015, we 
plan to request approval for the transfer of an additional $6,000,000 
in unspent prior year funds to support GPO's digitization efforts to 
expand and develop new digital content and maintain the integrity of 
the system as a trusted digital repository.
Business Operations Revolving Fund
    We are requesting $9,764,000 for this account, to remain available 
until expended, for continued information technology projects and 
necessary facilities projects. This compares with $8,757,000 that has 
been appropriated for fiscal year 2015.
Information Technology Projects $5,532,000
    FDsys Projects--$4,000,000
      -- General Development ($3,050,000)--Development of new FDsys 
            features to support identified needs of key stakeholders, 
            including developing new content collections, increasing 
            content in existing collections, enhancing the 
            accessibility of content, and increasing the 
            discoverability of information in FDsys.
      -- NextGen FDsys Public Website ($450,000)--Completion of 
            development and launch of FDsys NextGen to support a 
            responsive user interface, search engine replacement, 
            public ation linking, user interface improvements, and 
            content curation.
      -- Certification of FDsys as a Trustworthy Digital Repository 
            ($250,000)--Development to support the certification of the 
            FDsys Preservation Repository as a Trustworthy Digital 
            Repository.
      -- FDsys Infrastructure ($250,000)--Infrastructure for the 
            hardware, storage, and infrastructure environments to 
            manage system performance as FDsys content and usage 
            continues to grow, including support for GPO efforts to 
            migrate FDsys infrastructure components to the Cloud.
    Enterprise System Upgrades--$1,532,000
      -- Core Router/Switch Replacements ($400,000)--Replacement and 
            upgrade for segments of GPO's existing core routing 
            infrastructure that have reached end of life.
      -- Itanium Servers ($400,000)--Replacement and upgrade of the 
            servers that support GPO's publishing and printing 
            capabilities.
      -- Enterprise Storage ($300,000)--Infrastructure funding is 
            necessary to ensure that GPO's IT storage capacity 
            continues to grow to support the agency's application and 
            data storage requirements.
      -- Data Communications Equipment ($232,000)--Replacement and 
            upgrade of core communications equipment that has reached 
            end of life.
      -- Web Filtering ($200,000)--Replacement and upgrade of the web 
            filtering equipment that protects GPO users from accessing 
            malicious and/or inappropriate Internet sites.
Facilities Projects $4,232,000
  --Upgrade Electrical Substation ($3,500,000)--There is only one 480V 
        substation in all of GPO's Buildings A, B and C. New, more 
        efficient equipment is 480V by standard (including elevators as 
        well as production equipment). Without upgrading our 
        substation, we risk running out of power to produce essential 
        work for Congress and Federal agencies.
  --Structural Evaluations and Remedy Actions ($400,000)--We have areas 
        of concrete floors that are degrading to the point where they 
        may fail. This funding is to continue any third party 
        structural analysis and for ongoing repairs on the areas in the 
        worst shape.
  --Roof replacement ($332,000)--This represents the remaining phase of 
        our multi-year roof upgrade to improve energy efficiency and 
        reduce the potential for damage and health and safety concerns 
        that can result from leaks in areas that are currently 
        compromised.
    Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee, this concludes my prepared statement and I look forward 
to working with you and members of your staff as you consider our 
appropriations request for fiscal year 2016.

                          OFFICE OF COMPLIANCE

   Prepared Statement of Barbara J. Sapin, Executive Director of the 
                          Office of Compliance
    Madam Chairwoman Capito, Ranking Member Schatz, and Members of the 
Legislative Branch Subcommittee, thank you for allowing me the 
opportunity to submit for the record, this statement regarding the 
budget request for fiscal year 2016 for the Congressional Office of 
Compliance (OOC).
    In its 2016 budget request, the OOC seeks an appropriation of 
$4,020,000 for fiscal year 2016, the same amount as the fiscal year 
2015 budget request and an additional $61,000, or 1.5 percent over the 
fiscal year 2015 enacted amount. This increase will allow us to make 
necessary improvements to protect our Web site www.compliance.gov to 
comply with existing cybersecurity standards and to build into the site 
the capacity to host on-demand on-line interactive training modules 
that we are developing for Congressional employees. The Congressional 
Accountability Act (CAA) requires the OOC to carry out a program of 
education for Members of Congress and other employing authorities of 
the legislative branch. As approximately half of congressional staff 
members are working in district and State offices instead of on Capitol 
Hill, our focus has shifted to e-learning as a means of carrying out 
our statutory educational mandate.\1\ We recently completed our first 
on-line module, on sexual harassment, and plan for more on other 
employment issues, such as the Family Medical Leave Act (FMLA) and the 
Americans with Disabilities Act (ADA). A comprehensive training 
program, as envisioned in the CAA, continues to be one of the most 
effective investments an employer can make in reducing complaints and 
improving worker productivity and reducing absenteeism and employee 
turn-over. With readily available, user-friendly training modules, we 
expect to reach more employees.
---------------------------------------------------------------------------
    \1\ Public Law 104-1, Section 301(h)(1).
---------------------------------------------------------------------------
    Looking forward to fiscal year 2016, we will continue to cross-
train our small staff of 22 full-time equivalent (FTE) positions and 
leverage our already lean operations with short term contracts for 
services. For example, we have used our occupational health and safety 
(OSH) specialists to conduct our ADA inspections to identify barriers 
to access for persons with disabilities. We have also used contractors 
to supplement those inspections so we could cover more areas and 
buildings. Following enactment of the Office of Compliance 
Administrative and Technical Corrections Act of 2015, we have increased 
our use of outside mediators, who are reimbursed with a flat fee per 
mediation. This request contains sufficient funds to maintain a new 
case management system that we developed with fiscal year 2015 funds. 
We are working to add an e-filing component to the system. We are also 
enhancing our video teleconference equipment to save money on hearing 
officer travel for cases in district and State offices, and for 
providing technical assistance and training. The balance of our 1.5 
percent budget increase is for cross-servicing providers (Library of 
Congress, National Finance Center) and other equipment, services, and 
supplies needed to operate the OOC.
    For 20 years now, the OOC has served Congress as a third party 
neutral for disputes and as an educator for workplace rights. The OOC 
has made significant contributions to the safety of congressional 
workplaces through its OSH biennial inspections and OSH case work, and 
it has used its ADA inspections and ADA case work to eliminate barriers 
to access to congressional facilities and programs for persons with 
disabilities. Each of the OOC's five Board members received new 2-year 
terms in fiscal year 2015.\2\ They have an ambitious agenda for their 
remaining time, including but not limited to, publishing new ADA, Fair 
Labor Standards Act (FLSA), and FMLA regulations for approval by 
Congress. The OOC staff will act on those initiatives as well as 
continuing to provide quality services to the congressional community 
on a day to day basis.
---------------------------------------------------------------------------
    \2\ The Board members count as one FTE and are paid by OOC on a 
``while-actually-employed'' basis.
---------------------------------------------------------------------------
    I am available to answer any questions or address any concerns the 
Chairwoman, the Ranking Member, or any of the Legislative Branch 
Subcommittee Members may have.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee did not hold formal 
hearings for nondepartmental witnesses. The statements of those 
submitting written testimony are as follows:]
    Prepared Statement of the American Association of Law Libraries

  [Testimony on behalf of the American Association of Law Libraries, 
  Association of Academic Health Sciences Libraries, Medical Library 
            Association, and Special Libraries Association.]

    Dear Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for the opportunity to submit testimony for the record in 
support of the fiscal year 2016 funding requests of the Government 
Publishing Office (GPO) and the Library of Congress (LC). We 
congratulate Chairwoman Capito on her selection as chair of the 
Legislative Branch Subcommittee and Ranking Member Schatz on his 
selection as ranking member. We appreciate the supportive comments both 
of you made during the March 17 hearing on the Library of Congress.
    The American Association of Law Libraries (AALL), the Association 
of Academic Health Sciences Libraries (AAHSL), the Medical Library 
Association (MLA), and the Special Libraries Association (SLA) 
represent more than 18,000 librarians and information specialists in 
the United States and around the world. We serve researchers, students, 
professionals, businesses, and members of the public with their 
information needs. Our members rely on GPO for permanent public access 
to official, authentic Government information and on LC for access to 
unique collections and authoritative resources. GPO and LC also provide 
leadership on many critical information policy issues, such as 
authentication, digitization, and preservation. Therefore, advocating 
for adequate funding for these agencies is a high priority for our 
associations.
                      government publishing office
    Access to Government information is the bedrock of a strong 
democracy. For more than 150 years, GPO has ``kept America informed'' 
by providing access to official, authentic Government information. 
Today, GPO provides cost-effective access to Government information 
from all three branches in tangible and electronic formats primarily 
through the 200-year-old Federal Depository Library Program (FDLP) and 
FDsys.
    We are pleased that Congress recognized GPO's place in the twenty-
first century by approving a name change for the agency in the 
Consolidated and Continuing Appropriations Act of Fiscal Year 2015, 
Public Law 113-235. The new name, which changed GPO from the Government 
Printing Office to the Government Publishing Office, reflects GPO's 
essential role in publishing and providing access to print and 
electronic information in the digital age.
    Our associations strongly support GPO's request of $120 million, 
essentially a flat funding request. We urge the subcommittee to fully 
fund each account within the request, including Congressional 
Publishing, Public Information Programs of the Superintendent of 
Documents, and the Revolving Fund.
    Our associations support GPO's request of $79,736,000 for the 
Congressional Publishing account. Legislative information--the daily 
and bound Congressional Record, congressional bills, full committee 
hearings, reports, prints and documents, as well as other materials--is 
among the most highly used Government material. While our members value 
the ability to access many of these materials electronically through 
FDsys, they continue to rely on print distribution of congressional and 
other materials to depository libraries. In part, this is because not 
all collections on FDsys are complete; for example, GPO recently 
conducted a study that revealed that thirty percent of distributed 
hearings are not available on FDsys. In addition, many users, including 
members of the public, law students, and faculty, still prefer to use 
the print. Therefore, it is essential that GPO continue to produce some 
materials in tangible form.
    We also urge you to approve the requested $30,500,000 for the 
Public Information Programs of the Superintendent of Documents, which 
supports cataloging, indexing, and distribution of Federal publications 
to depository libraries. As indicated in the Superintendent of 
Documents' National Plan for the Future of the FDLP, support for a 
strong cataloguing and indexing program is essential to ensuring 
continued discovery and access to Government information.
    For more than 200 years, the FDLP has provided geographically 
convenient access to Government information through a network of 
libraries around the country. Today, your constituents have access to 
congressional and other important Government publications and 
information products through the FDLP, with the assistance of trained 
librarians. The FDLP is undergoing a transformation to an increasingly 
electronic program. A key component of the National Plan is the Federal 
Information Preservation Network, which we believe will ensure 
continued access to Government information, now and for future 
generations.
    Our associations also support GPO's request of $9,764,000 for the 
Revolving Fund. Particularly important to our associations is funding 
for the next generation of FDsys. FDsys launched in 2009 as the source 
for no-fee access to official, authentic Government information and 
today includes more than one million individual titles from all three 
branches of Government. Members of our associations contributed to the 
development of the first generation of FDsys. For example, AALL members 
suggested the ``search by citation'' feature, which was implemented by 
GPO. It is very important that GPO has adequate funding to increase 
FDsys content, improve search functionality, and pursue certification 
as a Trustworthy Digital Repository.
                          library of congress
    For 215 years, the Library of Congress has been dedicated to its 
mission to support the Congress in fulfilling its constitutional duties 
and to further the progress of knowledge and creativity for the benefit 
of the American people. LC has the unique role of acquiring, 
cataloguing, preserving, and making accessible a vast array of books, 
recordings, photographs, maps, and manuscripts.
    The Law Library of Congress is the world's largest law library, 
with a collection of nearly three million volumes spanning the ages and 
covering virtually every jurisdiction in the world. The Law Library is 
a world leader in providing access to reliable legal materials in print 
and electronic formats. We strongly support the Library's priority 
initiatives, including the classification of the remaining volumes to 
Class K Law Classification and the hiring of dedicated staff to 
complete this work. Additional staff will allow the Law Library to 
complete this challenging work in a timely manner and improve the 
discoverability and accessibility of these materials.
    We also support the Library's $4,814,000 request for its National 
Collection Stewardship Program to protect its collections by expanding 
storage on its Capitol Hill campus through the installation of compact 
shelving and the lease of interim collections storage space until 
construction of Fort Meade modules, including Module 5, is complete. 
The Library's one-of-a-kind collection must be protected.
    As information is increasingly produced, acquired and preserved 
electronically, the Library faces monumental challenges in its quest to 
provide access to knowledge. Therefore, we support the Library's 
decision to hire a Chief Information Officer (CIO) and Deputy CIO. We 
believe the CIO and Deputy CIO will help the Library update its 
infrastructure and better respond to the growing needs of the 
institution.
    We commend LC and GPO for working together, along with the National 
Archives and Records Administration, to form the Federal Web Archiving 
Working Group. Preserving born-digital Government information and 
making it accessible will benefit librarians, researchers, historians, 
and all Americans. Without this collaboration, publicly available born 
digital materials are at risk of being lost forever.
                               conclusion
    GPO and LC play a critical role in ensuring permanent public access 
to Government information in all formats and preserving our cultural 
heritage. GPO and LC ensure that the American people have continued 
access to the information that supports a strong democracy.
    AALL, AAHSL, MLA, and SLA respectfully urge you to fully fund the 
appropriations requests of the Government Publishing Office and the 
Library of Congress.
            Sincerely,
                                   Holly M. Riccio,
                                                 President,
                             American Association of Law Libraries.

                         ABOUT THE ASSOCIATIONS

    AALL.--The American Association of Law Libraries (AALL) was founded 
in 1906 to promote law libraries' value to the legal and public 
communities, foster the law librarianship profession, and provide 
leadership in the legal information field. With nearly 5,000 members, 
AALL represents law librarians and related professionals who are 
affiliated with law firms; law schools; corporate legal departments; 
courts; and local, state, and Federal Government agencies.
    AAHSL.--The Association of Academic Health Sciences Libraries 
(AAHSL) supports academic health sciences libraries and directors in 
advancing the patient care, research, education and community service 
missions of academic health centers through visionary executive 
leadership and expertise in health information, scholarly 
communication, and knowledge management. AAHSL membership is composed 
of 166 academic health sciences libraries whose medical schools hold 
member or associate member status in the Association of American 
Medical Colleges.
    MLA.--The Medical Library Association (MLA) is a nonprofit, 
educational organization with 3,700 health sciences information 
professional and institutional members worldwide. Founded in 1898, MLA 
provides lifelong educational opportunities, supports a knowledgebase 
of health information research, and works with a global network of 
partners to promote the importance of quality information for improved 
health to the healthcare community and the public.
    SLA.--The Special Libraries Association (SLA) is a nonprofit global 
organization for innovative information professionals and their 
strategic partners. SLA serves about 8,000 members in 75 countries in 
the information profession, including corporate, academic, and 
Government information specialists. SLA promotes and strengthens its 
members through learning, advocacy, and networking initiatives.
                                 ______
                                 
         Prepared Statement of the Congressional Data Coalition
    Dear Chairman Capito, Ranking Member Schatz, and Senators Kirk, 
Moran, and Murphy:

    Thank you for the opportunity to submit testimony on legislative 
branch funding priorities for fiscal year 2016. Our recommendations 
focus on improving efficiency within and transparency concerning 
offices and agencies of the legislative branch, with an emphasis on 
better use of information technology.
                                about us
    The Congressional Data Coalition is a coalition of citizens, public 
interest groups, trade associations, and businesses that champion 
greater Government transparency through improved public access to and 
long-term preservation of congressional information.\1\
---------------------------------------------------------------------------
    \1\ For more information, visit http://congressionaldata.org/.
---------------------------------------------------------------------------
                recognition of ongoing senate activities
    We commend the United States Senate for its recent commitment to 
publish bill status and summary information--soon to be joined by 
legislative text--online and in a structured data format. We also 
appreciate the quarterly public meetings hosted by the invaluable Bulk 
Data Task Force, of which delegates from the Senate often participate. 
We remain hopeful that progress will be made on the Joint Committee on 
Printing's directive to digitize volumes of the Congressional Record 
from 1873 to 1998.
                          summary of requests
  --Extend and broaden the Bulk Data Task Force
  --Publish the Congressional Record in XML and eliminate electronic 
        publication gaps
  --Publish a complete and auditable archive of bill text, in a 
        structured electronic format
  --Instantiate a Senate-wide committee record publishing system
  --Publish a contemporaneous list of widely-distributed CRS reports 
        that contains the report name, publication/revision/withdrawal 
        date, and report ID number
  --Release widely-distributed CRS reports to the public
  --Publish Bioguide in XML with a change log
  --Publish the Constitution Annotated in a machine-readable format
  --Publish Senate office and support agency reports online
  --Publish Senate Expenditure Reports in a machine-readable format
              extend and broaden the bulk data task force
    One of the greatest successes of the efforts to modernize 
legislative information was the creation of the Bulk Data Task 
Force,\2\ the recommendations of which led to the online publication of 
bill summaries and text in a structured data format and the commitment 
to add bill status information this year, as well as other 
improvements. While the Task Force issued its final report in the 113th 
Congress, many of its participants continue to meet. The Task Force is 
a unique forum for congressional content creators and publishers to 
work together and interact with the public. We hope the Senate will 
deepen its participation as it continues to send delegates from its 
Senate and legislative support offices to participate in deliberations.
---------------------------------------------------------------------------
    \2\ House Report 112-511, available at http://www.gpo.gov/fdsys/
pkg/CRPT-112hrpt511/pdf/CRPT-112hrpt511.pdf.
---------------------------------------------------------------------------
    We urge the subcommittee to formally reestablish the Task Force on 
a permanent basis and expand its mission to broadening availability of 
congressional information in machine readable formats. There is 
precedent for this, with the XML Working Group that was created in the 
1990s to establish document type definitions for use in creating 
legislative documents in XML.\3\ Its scope should include legislative 
information and records held by committees, offices, and legislative 
branch agencies as well as other information concerning the operation 
of Congress.
---------------------------------------------------------------------------
    \3\ See http://xml.house.gov/.
---------------------------------------------------------------------------
                      congressional record in xml
    The Congressional Record, as the official record of the proceedings 
and debates of the Congress, is central to understanding congressional 
activities. Many of the resources we have come to rely upon, such as 
Congress.gov, republish just a fraction of its contents. Unfortunately, 
the Congressional Record is not published in bulk in a structured data 
format, but instead as plain text, and, in some cases, as less 
versatile PDFs. In addition, the Congressional Record is available 
online only from 1994 forward and prior to 1873. The Joint Committee on 
Printing authorized GPO to fill in the 100-plus-year gap in 2011,\4\ 
although it is unclear whether online publication would be as 
structured data or in a less flexible format (such as PDF).
---------------------------------------------------------------------------
    \4\ See http://www.scribd.com/doc/48672433/Constitution-Annotated-
Congressional-Record-and-Statutes-at-Large.
---------------------------------------------------------------------------
    While there had been efforts by the public to scrape the version of 
the Congressional Record on the old THOMAS.gov,\5\ the results were 
incomplete and the same scrapable information no longer exists on 
Congress.gov. Moreover, there is no substitute for official publication 
in a structured data format like XML. We urge the committee to inquire 
into GPO's efforts to fill the online publication gap and to require 
future publication of the Congressional Record in XML.\6\
---------------------------------------------------------------------------
    \5\ https://sunlightfoundation.com/blog/2014/02/20/sample-the-new-
a-la-carte-congressional-record-parser/.
    \6\ In the meanwhile, publication of the Congressional Record in 
locator code format along with GPO's locator code-to-PDF conversion 
software, in source code form, may suffice in the interim.
---------------------------------------------------------------------------
                    complete and auditable bill text
    The Government Publishing Office is charged to accurately and 
authentically print the bills before Congress, yet there are gaps in 
GPO's archive--as seen on FDSys--without any explanation. In addition, 
public access to the text of bills in the 101st and 102nd Congresses 
are being removed as a part of the retirement of THOMAS.gov. 
Furthermore, GPO holds structured data for bills prior to the 111th 
Congress (when both House and Senate legislation were first published 
in XML) that it does not make available to the public at all (i.e., in 
locator code format). We ask that GPO publicly report on the presence 
or absence of public access to all prints of bills starting with the 
101st Congress, including access to the prints in a structured data 
format, with a public audit log in CSV format. This would build trust 
in GPO's authenticity and accuracy processes.
      instantiate a senate-wide committee record publishing system
    Committee documents are vital records of congressional activity, 
but they often are hard to find or search, and are subject to removal 
from a committee website when leadership turns over or Web sites are 
updated. We urge the Senate to institute a chamber-wide committee 
publishing system that serves as a comprehensive repository across 
committees and congresses.
    To address this problem, the House of Representatives created 
Docs.house.gov, which ``provides access to committee documents and text 
of legislation being considered in committee . . .'' dating back to the 
112th Congress in XML formats where available. It includes meeting 
notices, witness lists, witness and member statements, legislative and 
amendment text, and more. The Clerk of the House administers the site 
to ensure it is viewed as nonpartisan. Docs.house.gov guarantees that 
public access to committee records is maintained even as leadership 
changes and committee websites are updated. We urge the Senate to 
provide the same level of access to its committee documents.
                              crs reports
    CRS reports often inform public debate. Its analyses are routinely 
cited in news reports, by the courts, in congressional debate, and by 
government watchdogs. However, unlike its sister legislative branch 
agencies, CRS reports are not released to the public by CRS even though 
CRS routinely shares them with the media upon request and with 
officials in the executive branches. In addition, public access often 
is through third parties that routinely charge a fee for access. We 
believe all Americans should have an equal opportunity to be educated 
about important legislative issues--including knowing which reports 
have recently been released and having free access to them.
    We request the subcommittee require CRS to contemporaneously 
publish online a list of the names, report numbers, and publication/
revision/withdrawal dates for CRS reports. We do not include CRS 
memoranda, which are confidential. In this way, members of the public 
may contact their Senators if they see a report they are interested in 
upon its publication or revision. CRS already provides an annual report 
to the Committee, published on CRS's Web site, which lists the total 
number of reports issued or updated. In fiscal year 2012, for example, 
534 new reports were prepared and 2,702 reports were updated.\7\ This 
accounting should be expanded to include an index of the reports and be 
updated on a daily basis in a machine-readable format.
---------------------------------------------------------------------------
    \7\ Annual Report of the Congressional Research Service of the 
Library of Congress for Fiscal Year 2012, p. 2, available at http://
www.loc.gov/crsinfo/about/crs12_annrpt.pdf.
---------------------------------------------------------------------------
    We further request the public be provided direct online access to 
the recent Congressional Research Service reports, which we have 
discussed in prior testimony to the Committee.\8\
---------------------------------------------------------------------------
    \8\ See Comments of the Sunlight Foundation, May 24, 2013, 
available at https://s3.amazonaws.com/assets.sunlightfoundation.com/
policy/testimony/Sunlight%20Foundation%20
Leg%20Branch%20Approps%20Testimony%202013-05-24.pdf.
---------------------------------------------------------------------------
               publish bioguide in xml with a change log
    The Biographical Directory of the United States Congress (or 
Bioguide) is an excellent source of information about current and 
former Members of Congress. Since 1998, the online version of the 
Bioguide has been maintained by staff in the Office of the Clerk's 
Office of History and Preservation and the Office of the Historian of 
the United States Senate at http://bioguide.congress.gov. Since at 
least 2007, the underlying data structures for Bioguide data have been 
provided by the House at its XML Web site. Unfortunately for those who 
wish to programmatically make use of the information, the Web site's 
data is published only in HTML. In addition, the Bioguide Web site 
provides up to three HTML files for each Member: a biography, extended 
bibliography, and research collection, which can triple the amount of 
work required to fully scrape the Web site. We recommend Bioguide 
information be published in XML. In addition, a change log for the 
Bioguide Web site through Twitter or an RSS/Atom feed would be helpful 
to keep the public apprised of updates/changes.
                         constitution annotated
    The Constitution Annotated (or CONAN) is a continuously-updated 
century-old legal treatise that explains the Constitution as it has 
been interpreted by Supreme Court. While the Joint Committee on 
Printing required in November 2010 that GPO and CRS to publish CONAN 
online, with new features, and with updates as soon as they are 
prepared, it did not require publication in a machine-readable 
format.\9\ This is an important omission, as the document is prepared 
in XML yet published online as a PDF, even while it is internally 
available to Congress as a series of HTML pages. This issue is ripe for 
resolution. At a minimum, publication of either the XML source or the 
HTML pages would address many of our concerns.
---------------------------------------------------------------------------
    \9\ See http://www.scribd.com/doc/48672433/Constitution-Annotated-
Congressional-Record-and-Statutes-at-Large.
---------------------------------------------------------------------------
                senate office and support agency reports
    The legislative offices and agencies that support the work of the 
United States Senate issue annual or semi-annual reports on their work. 
These reports are of interest to the public as they help explain 
legislative operations and often can help ensure public accountability. 
While some offices routinely publish their reports online, others do 
not, or do not do so in a timely fashion. We urge that the subcommittee 
to require all legislative support offices and agencies that regularly 
issue reports that summarize their activities to publish those reports 
online in a timely fashion, including back issues.
         semi-annual senate report on receipts and expenditures
    The semi-annual Senate report on Receipts and Expenditures contain 
all spending by the U.S. Senate and are currently published online as a 
PDF. They should be published as data files, such as CSV, to allow for 
the public to easily analyze the information. The online publication 
that started in 2011 was a significant step forward, but the data 
should be available in a more flexible format.
    We appreciate your attention to these issues.

            Sincerely yours,

        Congressional Data Coalition
        Data Transparency Coalition
        Demand Progress
        Free Government Information
    GovTrack.us
    OpenTheGovernment.org
    R Street Institute
    Sunlight Foundation

    [This statement was submitted by Daniel Schuman, Demand Progress 
Policy Director.]
                                 ______
                                 
   Prepared Statement of the Library of Congress Professional Guild, 
                           AFSCME Local 2910
    Chairwoman Capito, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for providing us with this opportunity to comment on the 
fiscal year 2016 budget request for the Library of Congress submitted 
by the Librarian, Dr. James H. Billington. Our organization--the 
Library of Congress Professional Guild, AFSCME Local 2910--represents 
over 1250 professional employees throughout the Library of Congress 
including Library Services, the Copyright Office, the Law Library, 
Information Technology Services and the Office of Strategic 
Initiatives, and all of the Library's Support Operations.
    The American economy is a knowledge-based economy which demands 
high levels of education and innovation. The ability to leverage the 
intellectual capital in our society is becoming as important as the 
utilization of our natural resources or the production of commodities. 
Advances in medicine, science, energy, literature and the arts, 
telecommunications and information technology are being transformed 
into economic prosperity for our Nation.
    The Library of Congress has a pivotal role to play in this 
unfolding drama. We thank you for your support of the Library's 
programs in fiscal year 2015 and we urge you to support the Librarian's 
current budget request of $666.6 million.

    Staffing.--Sequestration and flat funding in recent years have 
taken a toll. It can be debated whether the Library is experiencing a 
``retirement tsunami.'' But one thing is certain--talented, seasoned 
Library veterans are leaving the workforce at an alarming rate, taking 
with them their institutional knowledge and often a life-time of 
experience. This exodus of career employees poses a growing threat 
which is undermining the Library's ability to fulfill its' mission.
    Hiring staff to fill critical vacancies is imperative to stem the 
erosion of the Library's mission-critical functions. As statistical 
information the Guild recently compiled shows, two of the Library's 
core functions have suffered crippling shortages. In 2004 there were 
506 staff members in the Acquisitions and Bibliographic Access (ABA) 
unit of Library Services. Ten years later--in 2014--these cataloging 
and acquisition librarians saw their numbers reduced to 238, a roughly 
50 percent decrease. Similarly, reference services in the Library's 
Collections Services (CS) unit were supported by 313 staff members in 
2004. But by 2014 their numbers were reduced to 238, almost a 25 
percent reduction in the staff who directly serve our users. 
Congressional support is essential if the Library is to sustain its' 
staff many of whom have highly specialized subject matter and foreign 
language expertise.
    I am pleased to report to the subcommittee one small, but important 
initiative at the Library, a 1 year Phased Retirement Pilot program 
that was negotiated with the Library's three unions.
    On August 8, 2014 the Office of Personnel Management (OPM) 
published the final rules for its' phased retirement program and, soon 
thereafter, the Library proposed the establishment of a Phased 
Retirement Pilot. Although the Library's pilot is a modest one, we are 
pleased to note that it is the first one implemented in the Federal 
Government; we hope it will assist the Library with the transfer of 
knowledge from veteran staff to the next generation of employees.

    Stewardship.--The Library of Congress is well-known for having the 
largest and most comprehensive collection of intellectual and cultural 
materials in the world. But where is it going to house all of these 
collections? Even digital resources must be housed.
    Members of the subcommittee may have heard stories of the hundreds 
of thousands of books on the floor or on book trucks in the Jefferson 
and Adams buildings. It may be hard for subcommittee members to 
visualize, but this overcrowding of the stacks also creates and 
magnifies the fire safety and life safety hazards present in those book 
stacks, putting the collections at greater risk as well as the 
employees who work in the stacks.
    Our book stacks are housed on a metal grid of flooring that is very 
old. Unlike the regular floors in these historic buildings, the stacks 
provide no good barriers to the spread of fire and smoke. An old book 
conveyor system cuts through the floors making a path for the spread of 
fire. In addition, the weight of all of these books is nearing the peak 
load sustainable by the metal grid of flooring. These areas have no 
protected exit path for staff and some even lack fire doors.
    As far back as 2000-2001, the Office of Compliance cited the 
Library and the Architect of the Capitol for these life safety and fire 
safety hazards and while some corrections have been made, overloading 
the stacks and piling books on the floor makes conditions worse. At 
least, the overcrowding can be alleviated with funds for offsite 
storage. And please support the Architect's request for funding to 
build protected exits for the Adams and Jefferson buildings.
    Like Gutenberg's printing press seven centuries ago, advances in 
information technology have triggered another information revolution 
that affects every part of American society. Just like traditional 
print materials, acquiring, maintaining, providing access and 
preserving digital materials and digital collections present unique 
problems and challenges. For the past 30 years, the Library's programs 
to collect and manage digital materials in its special collections have 
been based in different Library units without an adequate central 
location to provide coordination and communication, but with your 
support that is about to change.
    The Guild seeks your support for the Library's request for funding 
to establish and staff a Digital Collections Center. The Library's 
collection of digital materials doubles in size every few years and 
this rapid growth shows no sign of abating in the years to come. Both 
for the Library itself and the wider American and world library 
community, there needs to be a centralized platform for managing the 
vast array of digital materials that the Library collects.

    The National Library Service for the Blind and Physically 
Handicapped.--The National Library Service for the Blind and Physically 
Handicapped (NLS) administers a free library service to U.S. citizens 
who, due to organic dysfunction, are unable to read conventionally 
printed materials. This includes persons with blindness, low vision, 
macular degeneration, as well as those with physical disabilities, such 
as Parkinson's Disease, Muscular Dystrophy, Cerebral Palsy, spinal cord 
injuries--in other words, anyone with a condition that inhibits the 
handling of printed material. NLS administers this national library 
system for persons with print disabilities and supplies audio and 
braille books, magazines, and music-instructional materials via a 
network of libraries that includes 55 regional, 39 sub-regional 
libraries and 14 advisory and outreach centers serving over 500,000 
patrons. Books and magazines are available in accessible audio and 
braille formats; books are sent on flash memory cartridges to patrons 
or can be downloaded directly from the BARD Web site and a free digital 
player is provided for audio titles. Over 23 million books and 
magazines are circulated annually by NLS.
    Due to the rapid changes in accessible technologies and 
improvements in delivery mechanisms, access to materials by the print 
disabled community is improving. To that end, the Guild supported the 
staff of NLS by advocating for the Marrakesh Treaty to Facilitate 
Access to Published Works for Persons Who Are Blind, Visually Impaired 
or Otherwise Print Disabled. NLS rightly enjoys a reputation as a 
global leader in the provision of library service for persons with 
print disabilities and serves a diverse patron base that includes 
veterans, children, the elderly, and an ever-growing Spanish-speaking 
population. We thank the committee for its continued support of this 
vital service for many persons with disabilities across the United 
States.

    The U.S. Copyright Office.--The creativity of authors in the United 
States is available everywhere one looks--in ebooks and print, in songs 
on streaming Internet radio, in motion pictures, and in smartphone apps 
hidden in our pockets. It is no understatement to say that American 
creativity brings cultural and economic riches.
    As the agency administering Copyright Law, the U. S. Copyright 
Office plays a critical role in the life of our Nation. Today, elected 
officials, academics, and others are examining how the Copyright Office 
can better serve the public; strengthen its technology infrastructure, 
and broaden its external mission. Such a review is important and long 
overdue. Behind this big picture, we wish to highlight the Copyright 
Office's Registration Program, whose employees work directly with small 
authors and the large copyright industry.
    Copyright owners rely on registration because the Copyright Office 
uses it to establish a public record of copyright ownership. These 
public records represent a stable foundation of copyright facts that 
enable parties to resolve problems without litigation. Of the 476,000 
copyright claims that were registered by the Office in 2014, less than 
1 percent ended up in U.S. Federal court. The copyright registration 
system hums because of 79 registration specialists and 7 problem 
resolution specialists. These individuals are the unflagging engine of 
the Copyright Office.
    Unfortunately, the number of registration staff has diminished 
substantially over the last 4 years (there were 130 registration 
specialists in 2010). For this reason, the Guild strongly supports the 
budget request for increased funding to the Copyright Office. The 
addition of 20 Registration Specialists comes at a critical time; work-
on-hand is increasing and the electronic system remains inadequate and 
unfinished.
    The Guild also supports the Library's request to add 5 full-time 
equivalents (FTEs) in Recordation to direct the business process 
reengineering in that area. The office must continue its transition 
from a labor-intensive paper process to an effective electronic one.

    Office of Inclusiveness, Opportunity and Compliance.--Resources for 
the Library's Office of Inclusiveness, Opportunity and Compliance (OIC) 
are at its lowest ebb. OIC implements the Library's Equal Employment 
Opportunity Program. It is responsible for the internal resolution of 
complaints and charges of discrimination and for assisting managers, 
supervisors, and employees with the resolution of other workplace 
disputes through mediation. The Office is a resource for identifying 
effective accommodations under the Americans with Disabilities Act and 
it provides interpreting services for deaf and hard of hearing 
employees and members of the public. It provides training and analysis 
on diversity issues. But insufficient staffing and stature within the 
Library has resulted in significant delays in mediation services, 
providing effective accommodations, and discrimination complaint 
processing.

    Information Technology.--This past year the Government 
Accountability Office (GAO) has been at the Library studying the 
Library's technology infrastructure. And on January 23, 2015 Dr. 
Billington announced that the Library will be conducting a national 
search for a Chief Information Officer and a Deputy Chief Information 
Officer. The forthcoming GAO report and the selection of a CIO is big 
news.
    We assure the members of the subcommittee that whatever 
recommendations or changes may be implemented as a result of these 
initiatives, they can depend upon the IT specialists at the Library of 
Congress to move forward with dedication, expertise and skill. While 
there is an air of uncertainty about the future of the Library's IT 
management structure, we know that the employees who provide direct, 
in-house technology services and digital planning will be there for us 
on the front lines, thinking forward to the next challenge.
    In conclusion, thank you for your continuing support for the 
programs and staff of The Library of Congress.
                                  Saul Schniderman,
                                                 President,
         Library of Congress Professional Guild, AFSCME Local 2910.
</pre></body></html>
